10/18/2019

Johnson and Lufrano, P.A. Mail - Florida Association of Criminal Defense Lawyers Amicus Support of Petition for Certiorari in Smith v. U…

diana johnson <diana@johnsonandlufrano.com>

Florida Association of Criminal Defense Lawyers Amicus Support of Petition for
Certiorari in Smith v. United States; 19-361
Reich, Mitchell P. <mitchell.reich@hoganlovells.com>
To: diana johnson <diana@johnsonandlufrano.com>

Tue, Oct 8, 2019 at 4:37 PM

We consent. Thank you!

From: diana johnson [mailto:diana@johnsonandlufrano.com]
Sent: Tuesday, October 08, 2019 4:36 PM
To: Reich, Mitchell P.; SupremeCtBriefs@usdoj.gov
Cc: Michael Ufferman
Subject: Florida Association of Criminal Defense Lawyers Amicus Support of Petition for Certiorari in Smith v. United
States; 19-361

Counsel of Record in Renado Smith and Richard Delancy v. United States:

Pursuant to S. Ct. R. 37.2(a), please accept this as Notice of Florida Association of Criminal Defense Lawyers' intention
of filing an amicus curiae brief in support of granting certiorari and in support of the Petitioners in the above-referenced
case.

No blanket consent has been filed, as such please let me know your position so I may comply with the rule when filing our
amicus brief with the Court due October 18, 2019.

Diana L. Johnson
Board Certified Expert in Criminal Appellate Law
Johnson and Lufrano, P.A.
1010 East Adams Street
Suite 205
Jacksonville, Florida 32202
(904) 513-3905
(904) 212-0691 (Fax)
http://www.jaxcriminaldefenseattorney.com/

https://mail.google.com/mail/u/0?ik=50ecf038d3&view=pt&search=all&permmsgid=msg-f%3A1646858932586321201&dsqt=1&simpl=msg-f%3A16468… 1/2

